                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A09050040                                                                       Page 1 of 1



                 Our investigation detennined that the Subject l knowingly plagiarized text into a proposal
         submitted to NSF. The Subject's acts were a significant departure from accepted standards, and
         constituted research misconduct. NSF made a finding of research misconduct by the Subject;
         sent a letter of reprimand to the Subject; required the Subject to submit certifications to the
         Assistant Inspector General for Investigations (AlGI), NSF OIG for 3 years; required the
         Subject's employer to submit assurances to the AlGI of NSF OIG for 3 years; prohibited the
         Subject from serving as a reviewer of NSF proposals for 3 years; and required the Subject to
         provide certification to the AlGI that she has completed a course in ethics training within one
         year ofthe finding of research misconduct.

                 This memo, the attached Report of Investigation, and the Deputy Director's letters
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
                                (




National Science Foundation 

Office of Inspector General 





         Confidential 

    Report of Investigation 

   Case Number A090S0040 

         13 July 2010 

~-




     CONFIDENTIAL 	                                                                    CONFIDENTIAL



                                          Executive Summary

     OIG's inquiry established that:

        • 	 copied text appeared in the Subject's NSF proposal.

     University's investigation concluded that:

        • 	 the Subject knowingly plagiarized text into a proposal submitted to NSF;
        • 	 the Subject's actions were a significant departure from the standards of her research
            community.

     OIG's investigation established that:

        • 	 the Subject copied approximately 300 lines oftext from 5 sources into a.proposal 

            submitted to NSF. 


     OIG concludes that:

        • 	 Act: The Subject plagiarized approximately 300 lines of text into a proposal submitted to
            NSF.                                                    .
        • 	 Intent: The Subject acted knowingly.
        • 	 Standard of Proof: A preponderance of the evidence supports the conclusion that the
            Subject's acts were a significant departure from accepted practices, and therefore
            constitute research misconduct.

     OIG recommends that NSF:

        •	  Make a finding of research misconduct against the Subject;
        •	  Send a letter of reprimand to the Subject;
        •	  Require that the Subject submit certifications to AlGI, NSF OIG for 3 years;
        •	  Require that the Subject provide assurances from his employer to AlGI, NSF OIG for 3
            years;
        • 	 Prohibit the Subject from serving as a merit reviewer of NSF proposals for 3 years; and
        • 	 Require the Subject to provide certification to NSF OIG of attendance at a training course
            in responsible conduct of research within 1 year of the finding of research misconduct.




                                                     2

CONFIDENTIAL                                                                                      CONFIDENTIAL



                                                     OIG's Inquiry

        We assessed an allegation that the Subject's 1 NSF proposal 2 contained copied text. Our
review revealed approximately 300 lines of text apparently copied from 5 sources 3 • We wrote
the subject for her explanation (Tab 1), and she replied (Tab 2)4 that she had copied material
from several of the indicated sources. She provided an alternative source for some ofthe
duplicated text, and asserted that she properly provided citations and references for all copied
material. The Subject did not address the absence of quotation marks or other distinguishing
features for any ofthe copied text. The subject's reply did not dispel the allegation, and we
referred an investigation to the Subject's university (Tab 3).

                                       University's Investigation
                                                                 .                  .
       Pursuant to its policy, the University first conducted an assessment of the allegation, and
then conducted an inquiry. The inquiry committee considered the annotated proposal and
apparent source document materials provided in our referral letter, and the Subject's response to
our inquiry letter. The Subject did not provide any additional documents to the committee. The
inquiry committee recommended that the matter proceed to investigation, and the same
committee continued with the investigation. The investigation committee (IC) report and
supporting documents (Tab 4) include a synopsis ofthe Ie's interview ofthe Subject.

       In her interview with the Ie, the Subject claimed that her style of writing in the NSF
proposal was consistent with the standards of her community, and guidance from a handbook for
writing in t h e _ . 6 The Ie concluded, however, that the Subject's writing in
the proposal ~e guidance provided by the handbook. The Subject stated to
the committee that she "never uses quotes.,,7 The Ie's reaction to the Subject's assertions is
described in the report as "disbelief."g

        The Ie concluded that the Subject committed plagiarism in her NSF proposal. The report
stated: "Text taken from other sources is used without quotation marks or other means to indicate
sufficiently that the text is derived from another source, and the sources for the text are not
provided in close proximity to the text. [The Subject's] use of text from other sources without
attribution significantly departs from the accepted practices of her research community. We find
that she knowingly and intentionally committed plagiarism.,,9




             docum<~nts included 2 journal articles and 3 conference/workshop proceedings.
4 In her response to the OIG letter (Tab 2), the Subject provided copies of email correspondence with a colleague
(author of one of the source documents) to document their working relationship. These and other additional
                        for inSlJec1tion
6


lIIIIfI!!!IIlith respondent notes" (Tab 4),
8 "Interview with respondent notes" (Tab 4).
9 Ie Report, page I (Tab 4).




                                                         3
CONFIDENTIAL                                                                                          CONFIDENTIAL




        After completing the investigation, the University's Director of the Office of Research
Compliance prepared a summary letter of the IC findings for the University Provost (Tab 5).
The Director reiterated the finding, by a preponderance of the evidence, that the Subject
knowingly and intentionally committed plagiarism in her NSF proposal. The Director concluded
that the plagiarism had no effect on the research record.

       The University Provost separately asked the head ofthe Subject's department to assess
the Subject's publications for evidence of plagiarism. The department head reported to the
Provost (Tab 6) that there was no substantive evidence of plagiarism in the Subject's
publication~.lo

        In adj4dicating this matter, the University Provost (Tab 7) required the Subject to certify
that any current proposals, manuscripts, or other professional documents do not contain any
knowing or intentional plagiarism. The Provost also required that the Subject certify that future
proposals in the next two years are free from plagiarism. The Provost required that the Subject
complete training on research ethics that includes instruction on plagiarism. Finally, the Provost
declared the Subject ineligible for the next merit pay increase provided to faculty.

       In response, the Subject (Tab 8) certified to the Provost that her current proposals under
review do not contain plagiarized material, indicated that she will abide by the certification
requirement for future proposals, and indicated that she would complete instructional training on
research ethics.

                                                OIG's Assessment

         We invited the Subject to comment on the University IC report. The Subject responded
(Tab 9) that she had no further comments on the report, and was proceeding with the completion
of the research ethics course required by the Provost. We concluded that the IC report was
accurate and complete, and that the University followed reasonable procedures. We accept the
report in lieu of conducting our own investigation.

        A finding of research misconduct by NSF requires that 1) there be a significant departure
from accepted practices ofthe relevant research community, that 2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
preponderance ofthe evidence. JJ The Subject admitted to us, and to the IC, that she copied
material into her NSF proposal without using quotation marks or otherwise differentiating the
words of others from her own. 12 The IC found her actions to be knowing and intentional
plagiarism, and a significant departure from the standards ofher community.

10 For example, the Department head states: "As such, her papers draw heavily upon previously published results
in the established area, and in cases where existing results generalize directly she carries over exact wording from
other authors. In all such cases that I saw, these results were brought torward using clear attribution and citations to
prior work. In the evaluated papers, a typical result along these lines would include a quoted and properly cited
theorem from a previous paper, to II owed by a statement saying that this result was being extended to the new
domain, and finally a modified theorem statement and proof." The letter from the Department Head is at Tab 6.
II 45 C.F.R.§689.2(c).
12 The five sources used by the Subject include two publications and three proceedings from scientific meetings.




                                                            4
CONFIDENTIAL                                                                          CONFIDENTIAL




        The Subject plagiarized approximately 300 lines of text into her NSF proposal, without
using quotation marks, citation or other differentiation. The NSF Grant Proposal Guide is clear:
NSF expects strict adherence to the rules ofproper scholarship and attribution. The
responsibilityfor proper attribution and citation rests with authors ofa proposal; all parts ofthe
proposal should be prepared with equal care for this concern. 13 In offering text written by
others as her own words, and in providing those words as emblematic of her own understanding
of the research field, the Subject significantly departed from accepted standards of the research
community.



        The Subject admitted that she knowingly copied text into her proposal (Tab 2), but
asserted that she provided adequate citation and reference. However, the absence of quotation
marks or other differentiating features for the copied text, the lack of reference citations in close
proximity to the copied text, the Subject's failure to conform to her discipline's writing
standards, and her use of citations and quotations in her professional publications confirm her
actions as knowing plagiarism.

                                               Standard ofProof .

       Direct comparison of proposals and the source documents, and the Subject's admission,
show that the Subject copied from 2 journal articles and 3 conference/workshop proceedings into
her declined NSF proposal. We conclude by a preponderance ot-the evidence that the Subject
knowingly plagiarized the work of others in her submitted proposal.

       The subject knowingly plagiarized text, and these actions represent a significant
departure from accepted practices, and we therefore conclude that her actions constitute research
misconduct.

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances. 14

                                                   Seriousness

       The Subject copied approximately 300 lines oftext from 5 different sources into her NSF
proposal. In so doing, the Subject presented that text to NSF proposal reviewers as her own.

13   NSF Grant Proposal Guide, Chapter I, Section D.3.
14   45 C.F.R. § 689.3(b).


                                                         5

CONFIDENTIAL                                                                                      CONFIDENTL\L



The University IC found, and we concur, that the Subject's plagiarism is a significant departure
from accepted practices. We find this to bea very serious breach of research ethics.

                                       Degree to which the Act was Knowing

         Th~ Subject knowingly copied the work of others into her NSF proposal. Her assertion
that citation and references were adequate and consistent with standard writing practices in her
field was viewed with extreme skepticism by the IC. We concur with the IC's assessment of the
subject's explanation. The subject received her education from top tier universities in both
Canada and the U.S. and has been employed at her University for 20 years, attaining the rank of
Professor. An individual with the subject's background would be well-versed, and practice
appropriate methods of attribution and citation.

        In copying this material, the Subject excused herself from the effort to write this section 

of the proposal herself. Her actions were distinctly knowing. 


                                                     Pattern

        Based on our review the Subject's plagiarism appears limited to one NSF proposal. 15

                                           Impact on the Research Record

         The Subject's proposal was declined; there was no impact on the research record.

                           Subject's comments on the draft Report oflnvestigation

        We provided a draft copy of this report of investigation to the Subject for comments. The
Subject responded (Tab 10) and provided her certificates of completion for an online ethics
course, 16 and stated that she will continue to communicate with the executive vice chancellor of
the Universityto provide assurances that her proposals do not contain plagiarized materiaL l ?

                                               Recommendation

         We recommend that NSF:

     • 	 Make a finding of research misconduct against the Subject;
     • 	 Send a letter of reprimand to the Subject; 18
     • 	 Require that the Subject certifY that proposals she submits to NSF do not contain
         plagiarized, falsified or fabricated materials for 3 years; 19

JS  A recent roposaJ resubmission with a similar 


I!Ii           " the Subject is the PI) appears to be "uU"',,"i..HUIY 

  om ot er authors.         .
16 http://orLdhhs.gov/education/productsimontanaroundl.researchethics.html. 

                                                                              .


17 This internal certification requirement imposed by the University-is in place for two years from February 2010 

through February 2012. 

18 A letter of reprimand is a Group I action, 45 C.F.R. § 689.3(a)(1)(i). 

J9 A certification from the subject is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l). 





                                                         6
.,.   t




          CONFIDENTIAL 	                                                                                      CONFIDENTIAL



                • 	 Require that the Subject obtain assurances from a responsible official of her employer
                      that proposals she submits to NSF do not contain plagiarized, falsified or fabricated
                      materials for 3 years;20                                 .
                •   	 Prohibit the Subject from serving as a merit reviewer of NSF proposals for 3 years;21 and
                •   	 Require the Subject to provide certification to NSF OIG of attendance at a trainin~ course
                      in proper conduct of research within I year ofthe finding of research misconduct. 2


                The Subject's certifications, assurances, and certificate of attendance should be sent to the
                Assistant Inspector General for Investigations for retention in OIG's confidential file.




          20   Assurance from the subject's employer is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1).
          21   Prohibition from service as a reviewer for NSF is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
          22   A course requirement is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1).


                                                                     7
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                           Ot( 1 0 2010

    OFFICE OF THE 

   DEPUTY DIRECTOR 





CERTIFIED MAIL -RETURN RECEIPT REQUESTED




       Re:      NoticeD! Research Misc(}nductDetermination


Dear

                                            10 the National Science Foundation ("NSF") entitled,
                                                                     " As documented 'in the
attached Investigative Report ot(:oare<1         s Office of Inspector General ("DIG"), this
proposal contained plagiarized text.

Research Misconduct and Proposed Sanctions
        Undet: NSF's regulations, "rese!:!l"ch misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or perfonningresearchfunded by NSF ..." 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit. ;;45 CFR § 689.1 (a)(3). A finding .ofTesearch misconduct
requires that:                                   .

       (1) There 	be a significant departure from accepted practices of the relevant research
           community; and
        (2) 	The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) 	The allegation be proven by a preponderance of evidence.

45 CFR:§ 689.2(c).

        Your proposal contained verbatim and paraphrased tc?xt, copied from five source
documents. By submitting a proposal to NSF that copied the ideas or words of another without
adequate 'attribution, as described in th.e oro Investigative Report, you misrepresented someone
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set forth in NSF's
regulations.
,>




                                                                                                    Page 2

             Pursuant to NSF regulations, the 'Foundation must also det~rmine whether to make a
     finding of misconduct based on a preponderance of the evidence. 45 CFR § ,689.2(c). After
     reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
     evidence, your plagiarism was committed knowingly and constituted a significant departure from
     accepted practices of the relevant research community. I am, therefore, issuing a finding of
     research misconduct against you.

               NSF's regulations establish three categories of actions (Group I, II, and ill) that can be
     taken in response to a finding of misconduct. 45 CFR § 689.3(a).Group I actions include
     issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
     NSF; requiring that an institution or individual obtain special prior approval of particular
     activities from NSF; and requiring that an institutional repres.entativecertifyas to the accuracy of
     rt:<ports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(I).
     Group II actions include award suspension or restrictions on designated activities or
     expenditures; requiring special reviews of requests for funding; and requiring correction to the
     research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
     awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debannent
     or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

            In detennining the severity of the sanction to impose for research misconduct, I have
     considered the seriousness of the misconduct, and our determination that it was committed
     knowingly. I have, also considered the fact that your misconduct was an isolated incident, and
     had no impact on the research record, as well as other relevant circumstances. 45 CFR §
     689.3(b).

            After assessing the relevant facts and circumstances of this case, 1 ani taking the
     following actions against you:

            (1) Until December 1, 2013, you must provide certifications to the OIG that any proposal
                or report you submit to NSF as a ,PI or co-PI do,es not contain plagiarized, falsified, or
                fabricated material;

            (2) Until December 1,2013, you must obtain, and provide to the OIG,assurances from a
                responsible official of your employer that any proposal or report you submit to NSF as
                a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

            (3) By December 1,2011, you must attend a training course in the proper conduct of
                research, and provide a certificate of attendance to the OIa that you have completed
                such a .course; and

            (4) Until December 1, 2013, you are prohibited from serving as a merit reviewer for NSF.
                                                                                            Page 3
       The certifications, assurances, and certificate ofattendance should be submitted in writing
to 01G, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.



Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing> to the Director of the Foundation. 45 CPR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. 1fwedo not receive your appeal within the 30-day period, this
decision will become fmal.




-
       Fot your information, we are attaching~e ,applicable regulations. If you have
any questions about the foregoing, please call _ _, Assistant General Counsel, at (703)

                                                                                              .



                                                    Sincerely,




                                                    Cora B. Marrett
                                                    Acting Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
